cl

vue, COCKLE

: E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B \ re contact@cocklelegalbriefs.com
ist.19.23
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
Nos. 20-543, 20-544

STEVEN T. MNUCHIN, SECRETARY OF THE TREASURY, Petitioner,
Vv.
CONFEDERATED TRIBES OF THE CHEHALIS RESERVATION, ET AL., Respondents.

ALASKA NATIVE VILLAGE CORPORATION ASSOCIATION, INC. ET AL., Petitioners,
v.
CONFEDERATED TRIBES OF THE CHEHALIS RESERVATION, ET AL., Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION TO
PETITIONS FOR CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 5860 words, excluding the parts
that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 16th day of December, 2020.
Lam duly authorized under the laws of the State of Nebraska to administer oaths.

("2 TERERAL HOTARY State of Kebraska | &v 2 f J
i RENEEAGoss 0. OQuddcas- .

My Comm. Exp. Saptamber5, 2023 F
ocean Notary Public 7 Affiant

        

 

40418
